August 20, 2014


MEMORANDUM FOR:            CHARLES L. MCGANN, JR.
                           MANAGER, CORPORATE INFORMATION SECURITY




                           for
FROM:                      Kimberly F. Benoit
                           Deputy Assistant Inspector General
                            for Information Technology and Data Analysis


SUBJECT:                   Management Alert – Backup and Recovery of Essential Data
                           (Report Number IT-MA-14-001)

This management alert presents our review of backup and recovery procedures for
essential databases due to a recent hardware failure that resulted in a loss of Computer
Incident Response Team (CIRT) data (Project Number 14BM003IT001). This issue
came to our attention during our Fiscal Year 2014 Information Technology Internal
Controls audit (Project Number 14BM003IT000).

We appreciate the cooperation and courtesies provided by your staff and commend the
immediate action taken by your office to ensure that CIRT data is maintained going
forward. If you have any questions or need additional information, please contact Aron
Alexander, director, Information Technology, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Backup and Recovery of Essential Data                                                             IT-MA-14-001



Introduction

During the Fiscal Year (FY) 2014 Information Technology Internal Controls audit
(Project Number 14BM003IT000), the U.S. Postal Service Office of Inspector General
(OIG) became aware of a hardware failure that resulted in the loss of the Computer
Incident Response Team (CIRT) database used to record and monitor computer
incidents (Project Number 14BM003IT001).1

The U.S. Postal Service’s Data Management Services group periodically performs off-
site backups for hundreds of critical databases. However, there are other essential
databases that are not classified as critical2 that are used for daily functions. These
functions include analysis of historical data and maintaining records for compliance with
existing security policy.3 We are issuing this alert to make the Postal Service aware of
the need to modify its current backup and storage requirements to ensure that essential,
but not critical, data is available.

Conclusion

The Postal Service did not ensure all database backups were being stored on separate
hardware. Specifically, the CIRT database was lost due to a hardware failure and the
data was not recovered due to the absence of a backup on a separate piece of
hardware. As a result, this database was not available to perform historical analyses
and the Postal Service could not comply with security policy. Although the Postal
Service took immediate corrective action for this database by implementing backup
procedures on separate hardware, there may be other unidentified databases that are
not backed up on separate hardware that could result in a loss of data and the inability
to comply with record maintenance requirements.

Backup and Recovery

The Postal Service maintained an essential CIRT database and backed up a copy of
the database on the same hardware. On April 4, 2014, a hardware failure occurred that
made the original database and the backup of the database inaccessible. 4 As a result,
the database was not available to perform analyses of computer incidents that would
enable management to more effectively monitor and resolve new incidents in a timely
manner. In addition, the Postal Service could not maintain an electronic incident
repository.



1
  Security incidents are events that threaten the integrity, availability, or confidentiality of information resources, such
as suspicion or occurrence of any fraudulent activity; unauthorized disclosure, modification, misuse, or inappropriate
disposal of Postal Service information.
2
  Information is designated as critical information if its unavailability would have a serious adverse impact on
communications. Essential databases are necessary for daily operations, but are not classified as critical.
3
  Handbook AS-805, Information Security, Section 13-4.2.2 Processing Incidents Reports.
4
  The Postal Service maintained paper copies of incident reports that contained portions of the data lost.
                                                              1
Backup and Recovery of Essential Data                                                        IT-MA-14-001



Although management responded swiftly and took corrective action by updating and
                                                                                   5
implementing backup procedures for a new CIRT database using the
application, there may be other essential databases used by other groups that are not
backed up on separate hardware. The practice of backing up data on the same
hardware could result in the loss of essential data, increased workhours to recreate the
databases, and an inability to perform analyses in the event of hardware failure.

Currently, the Postal Service’s security standards6 state critical information resources
must be stored off-site at a location that is not subject to the same threats as the original
media, but does not prohibit the practice of using the same hardware to maintain and
back up noncritical information resources. If the standards were updated, database
owners would need to review and possibly modify their backup procedures, thereby
ensuring information resources can be restored in a timely manner in the event of a
hardware failure.

Recommendations

We recommend the manager, Corporate Information Security:

1. Expand existing procedures in Handbook AS-805, Information Security, to prohibit
   the practice of using the same hardware to maintain and back up noncritical
   information resources.

2. Issue a reminder that data backups are to be maintained in an appropriate location
   to reduce potential loss, damage, or misuse of essential data.

Management’s Comments

Management agreed with the findings (in subsequent communications) and the
recommendations in the report. Regarding recommendation 1, management stated
Corporate Information Security will update Handbook AS-805, for backup storage
requirements. Specifically, the policy will require that backups must not be stored on the
same hardware device as the original information. Additionally, management will update
off-site backup storage requirements to state that noncritical information stored on
mainframes, servers, workstations, and mobile devices should be backed up and stored
off-site at a location that is not subject to the same threats as the original information.
Management’s target implementation date is April 2015.

Regarding recommendation 2, management stated after updating Handbook AS-805,
they will publish an article to Postal Service staff reminding them that backup media
containing sensitive and non-publicly available information must be labeled as
“Restricted Information” and backups must not be stored on the same hardware device
as the original information. Management’s target implementation date is April 2015. See
Appendix A for management’s comments, in their entirety.

5
               automates remote data backups.
6
    Handbook AS-805, Information Security, Section 9-9.4.4.6 Off-Site Backup Storage Requirements.


                                                          2
Backup and Recovery of Essential Data                                 IT-MA-14-001




Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                           3
Backup and Recovery of Essential Data                         IT-MA-14-001



                          Appendix A: Management's Comments




                                          4
Backup and Recovery of Essential Data       IT-MA-14-001




                                        5
